           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 BENEFICIARIES IN SUSPENDED PAYMENT
  STATUS PENDING THE SELECTION OF
      A REPRESENTATIVE PAYEE

   February 2012       A-09-10-11065




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      February 13, 2012                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Beneficiaries in Suspended Payment Status Pending the Selection of a Representative
           Payee (A-09-10-11065)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           had adequate controls to ensure it took appropriate actions for beneficiaries whose
           payments had been withheld pending the selection of a representative payee.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. SSA appoints representative
           payees to receive and manage these beneficiaries’ benefit payments. 1 Generally,
           benefits should not be suspended when a beneficiary requires a representative payee
           and none is immediately available. Instead, SSA must initiate a search for a suitable
           representative payee and make interim direct payment to the beneficiary. 2 However,
           benefits must be suspended in those situations where direct payment is prohibited.
           SSA must suspend benefits to legally incompetent adults or beneficiaries under age 15.
           In addition, SSA may suspend benefits if a representative payee dies, no longer wants
           to be a representative payee, is no longer qualified to be a representative payee, or is a
           fugitive felon.




           1
            The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
           1383(a)(2)(A)(ii).
           2
               SSA, POMS, GN 00504.110 (effective March 4, 2010).
Page 2 - The Commissioner


Benefits can be suspended for a maximum of 1 month while SSA searches for a
suitable representative payee if direct payment to the incapable beneficiary would
cause substantial harm. 3 The 1-month restriction does not apply to legally incompetent
adults or beneficiaries under age 15. For these cases, SSA policy states the selection
of a representative payee should be resolved as quickly as possible. 4

To ensure a representative payee is appointed, alerts are generated to the field office
for beneficiaries who have been in suspense for 1 month. When the alert is generated,
field offices make direct payment to the beneficiary unless there is a reason that
prevents direct payment. 5 Alerts are generated to field offices each month until benefits
are reinstated or the payment status changes.

In a 2006 audit, 6 we found that SSA needed to improve its controls to ensure benefit
payments were (1) suspended only in situations allowed by Agency policies and
(2) reinstated in a timely manner. Specifically, we estimated that $4.6 million in benefit
payments was improperly suspended to about 1,700 beneficiaries; $5.2 million in
benefit payments to about 1,580 beneficiaries was not reinstated after 1 month; and
$5.7 million in benefits was not reinstated in a timely manner to about 2,220 child
beneficiaries under age 15. SSA subsequently issued administrative messages to
remind field offices of its policies and procedures for processing suspensions of benefits
for representative payees and child beneficiaries. SSA also developed a Website to
assist field offices in controlling and developing their representative payee suspense
cases. 7

For our current audit, we identified 14,134 beneficiaries whose benefit payments had
been suspended as of December 2009 pending the selection of a representative payee.
From this population, we reviewed a random sample of 200 beneficiaries.




3
 Substantial harm means that direct receipt of funds by the beneficiary would cause physical or
mental injury to the beneficiary. However, based on a U.S. District Court ruling (Briggs v. Sullivan,
954 F.2d 534, 9th Cir. 1992), no delay is permitted for certain California residents. SSA, POMS,
GN 00504.105 (effective August 30, 2006).
4
    SSA, POMS, GN 00504.105 (effective August 30, 2006).
5
    SSA, POMS, GN 00504.110 (effective September 15, 2011).
6
 SSA, OIG, Beneficiaries in Suspended Payment Status Pending the Selection of a Representative
Payee (A-09-05-25020), May 18, 2006.
7
 SSA, AM-06100, Representative Payee Suspension Reminders, April 20, 2006; AM-08168, New York
Representative Payee S8/S08 Website, November 26, 2008; and AM-10162, Resolving Suspended
Title 2 Child Benefits - S8 Codes and Student Benefits, November 4, 2010.
Page 3 - The Commissioner


RESULTS OF REVIEW
Since our 2006 audit, we estimate the number of beneficiaries improperly suspended
pending the selection of a representative payee has increased 23 percent from 5,500 to
6,784. In addition, the amount of suspended benefits increased 96 percent from
$15.6 million to $30.6 million. Although SSA had improved its controls and procedures,
additional actions are necessary to ensure (1) adult beneficiaries are not improperly
suspended pending the selection of a representative payee, (2) field offices are properly
evaluating child beneficiaries’ (ages 15 through 17) capability to manage benefits, and
(3) representative payees are selected as quickly as possible for child beneficiaries
under age 15. Based on a random sample of 200 beneficiaries, we estimate that

•   $18.1 million in benefits was improperly suspended and should have been paid
    directly to 3,039 adult beneficiaries;

•   $4.3 million in benefits was suspended that could have been paid directly to
    1,201 child beneficiaries ages 15 through 17; and

•   $8.1 million in benefits was not paid timely to 2,544 child beneficiaries under age 15
    (see Appendix C).

We are 90 percent confident the number of adult beneficiaries who were improperly
suspended ranged from 2,381 to 3,787, and the amount of suspended benefits ranged
from $9.3 to $26.9 million. We are also 90 percent confident the number of child
beneficiaries ages 15 through 17 who could have been paid directly ranged from 779 to
1,759, and the amount of benefits withheld ranged from $1.9 to $6.7 million. In addition,
we are 90 percent confident the number of child beneficiaries under age 15 who were
not paid timely ranged from 1,935 to 3,255, and the amount of benefits not paid timely
ranged from $5.2 to $11.1 million.

This occurred, in part, because SSA generally relied on beneficiaries to contact the
Agency if they did not receive their benefits. In addition, SSA did not always determine
whether (1) beneficiaries were capable of managing their benefits and (2) paying
beneficiaries directly would cause them substantial harm. Finally, SSA’s Website that
controls representative payee suspensions did not include all beneficiaries in suspense
pending the selection of a representative payee.

Based on a random sample of 200 beneficiaries, we found that 96 (48 percent) were
not paid directly or timely reinstated. This consisted of 43 adult beneficiaries who were
improperly suspended, 17 child beneficiaries ages 15 through 17, and 36 children under
age 15 whose benefit suspensions were not resolved timely.
Page 4 - The Commissioner



                           Beneficiaries Suspended Pending the
                            Selection of a Representative Payee
       104 Beneficiaries                                                 43 Adults Were
        Were Properly                                                      Improperly
       Resolved (52%)                                                  Suspended (21.5%)



                                                                         36 Children Were
                                                                          Not Reinstated
                                                                           Timely (18%)



                                                                         17 Children Could
                                                                          Have Been Paid
                                                                          Directly (8.5%)




The following table summarizes the actions SSA took for the beneficiaries in suspense
pending the selection of a representative payee.

                                        Number of Beneficiaries
     Change in Payee           Over Age 18    Ages 15-17   Under Age 15           Total
    Payee to No Payee               5                  3           0                8
    Same Payee                      5                  4          14               23
    Payee to New Payee             25                  7          14               46
    No Payee to Payee               4                  0           2                6
    Unresolved                      4                  3           6               13
    Total                          43                 17          36               96

PAYMENTS TO ADULT BENEFICIARIES WERE IMPROPERLY SUSPENDED

Of the 200 beneficiaries in our sample, 96 were adults age 18 or older. We found
that SSA improperly suspended benefits for 43 beneficiaries while they were waiting
for a representative payee. According to SSA policy, these beneficiaries should
have received interim direct payments while SSA searched for a new representative
payee. On average, their benefits were suspended for 274 days. 8 As a result, these
beneficiaries did not receive $256,729 in benefits when they were payable. As depicted
in the chart below, SSA withheld benefits for two of these beneficiaries for over 2 years.




8
    The mean was 274 days. The median was 101 days.
Page 5 - The Commissioner



                           Benefits Improperly Suspended for Adult Beneficiaries
                                   Based on Random Sample of 200 Beneficiaries
        Number of Beneficiaries




                                       Number of Months that Benefits Were Suspended




Benefits can be suspended for a maximum of 1 month while SSA searches for a
suitable representative payee if direct payment to the incapable beneficiary would
cause substantial harm. 9 However, the 1-month restriction does not apply to legally
incompetent adults or beneficiaries under age 15. According to SSA’s records, there
was no evidence these beneficiaries were legally incompetent. Furthermore, SSA had
not determined that paying these beneficiaries directly would cause them substantial
harm.

SSA subsequently disbursed payments to 39 of the 43 beneficiaries. However, at
the time of our review, SSA had not paid the remaining four beneficiaries for their
past-due benefits totaling $104,840. As of August 2011, these beneficiaries were still
in suspended pay status pending the selection of a representative payee. When SSA
suspends payments for more than 1 month, the beneficiary’s needs may not be met. In
addition, the longer benefits remain in suspense, it is more likely SSA will be unable to
locate the beneficiary when it selects a representative payee.




9
    See Footnote 3.
Page 6 - The Commissioner


Of the 43 beneficiaries in suspense, 19 had friends or relatives as representative
payees. For example, in April 2009, SSA suspended a beneficiary because his
representative payee died. When this occurred, SSA did not make interim direct
payment to the beneficiary. In addition, SSA did not identify a new representative
payee for the beneficiary. In December 2010, the beneficiary requested, and SSA
determined he could receive, benefits directly. Since SSA neither paid benefits
directly to the beneficiary nor selected a new representative payee after benefits were
suspended, the beneficiary did not have use of $15,490 in benefits for 20 months.

PAYMENTS TO CHILD BENEFICIARIES COULD BE IMPROVED

Our review disclosed that SSA could improve its controls over payments to child
beneficiaries in suspended pay status. Specifically, we found that SSA suspended
benefits that could have been paid directly to child beneficiaries ages 15 through 17.
In addition, SSA withheld benefits from child beneficiaries under age 15 that were not
reinstated timely.

Benefits Could Have Been Paid Directly to Children Ages 15 Through 17

Of the 200 beneficiaries in our sample, 29 were children ages 15 through 17. We
found that SSA suspended benefits for 17 of these beneficiaries while it searched
for a representative payee. As a result, SSA withheld $60,909 in benefits for an
average of 205 days. 10 These beneficiaries could have received direct payment until
a representative payee was selected. As depicted in the chart below, SSA withheld
these benefits for up to 19 months.



                                  Benefits Could Have Been Paid to Children Ages 15-17
                                         Based on Random Sample of 200 Beneficiaries
        Number of Beneficiaries




                                             Number of Months that Benefits Were Suspended



10
     The mean was 205 days. The median was 118 days.
Page 7 - The Commissioner


SSA policy states that child beneficiaries ages 15 through 17 may be considered
capable of managing their benefits. This may occur for beneficiaries who

•     are entitled to disability benefits based on their own earnings;
•     are on active duty in the armed forces;
•     are living alone and supporting themselves;
•     are parents who filed for their own or their child’s benefits and have experience in
      handling finances;
•     have demonstrated the ability to handle finances, and no qualified representative
      payee is available; or
•     are within 7 months of attaining age 18. 11

We found that SSA could have directly paid 17 child beneficiaries ages 15 through 17.
Nevertheless, we found no evidence that SSA determined whether these children were
capable of managing their benefits. SSA subsequently disbursed payments to 14 of the
17 beneficiaries. However, at the time of our review, SSA had not paid the remaining
beneficiaries their past-due benefits totaling $8,943. As of August 2011, all three
beneficiaries were over age 18 and should have been paid directly.

For example, in July 2009, SSA suspended a child beneficiary because her father, who
had been serving as her representative payee, had died. The child’s mother requested
to be her representative payee, but SSA did not select her because of a discrepancy
involving her Social Security number. We found no evidence that SSA determined
whether the beneficiary was capable of managing her benefits. In June 2010, the
beneficiary attained age 18 and was no longer entitled to benefits. However, SSA
did not pay the beneficiary directly or select a new representative payee after benefits
were suspended. As a result, the beneficiary did not have use of $8,162 in benefits for
16 months. In November 2010, SSA directly paid the beneficiary her past-due benefits.

Benefits Were Not Reinstated Timely to Children Under Age 15

Of the 200 beneficiaries in our sample, 75 were children under age 15. We found
that SSA suspended their benefits pending the selection of a representative payee.
However, for 36 beneficiaries, SSA did not reinstate benefits in a timely manner.
Benefit payments to these children were suspended for an average of 310 days. 12 As a
result, these beneficiaries did not receive $114,948 in benefits when they were payable.
As depicted in the chart below, SSA withheld benefits for four of these beneficiaries for
over 2 years.




11
     20 C.F.R. §§ 404.2010 and 416.610; SSA, POMS, GN 00502.070 A.1 and B.2 (effective July 12, 2005).
12
     The mean was 310 days. The median was 222 days.
Page 8 - The Commissioner




        Benefits Not Reinstated Timely to Children Under Age 15
                                  Based on Random Sample of 200 Beneficiaries
        Number of Beneficiaries




                                    Number of Months that Benefits Were Not Reinstated




SSA must suspend benefits to child beneficiaries under age 15 when there are no
representative payees available. Benefits can be suspended for a maximum of 1 month
while SSA is searching for a suitable representative payee if direct payment to an
incapable beneficiary would cause substantial harm. 13 However, the 1-month restriction
does not apply to beneficiaries under age 15. For these cases, SSA policy states the
selection of a representative payee should be resolved as quickly as possible. 14

SSA subsequently disbursed payments to 30 of the 36 beneficiaries. However, at the
time of our review, SSA had not paid the remaining six beneficiaries their past-due
benefits totaling $34,469. Thirty of these children had parents as representative
payees. For example, in November 2009, SSA notified a father who served as
representative payee that SSA would select another representative payee for his son’s
benefits. The father stated that his son’s mother would be a better payee because she
also paid the father’s bills. Since SSA did not timely replace the representative payee,
the beneficiary did not have use of $1,892 in benefits for 5 months. In April 2010, SSA
paid the son’s benefits to his mother as the representative payee.




13
     See Footnote 3.
14
     SSA, POMS, GN 00504.105 (effective August 30, 2006).
Page 9 - The Commissioner


CONTROL AND DEVELOPMENT OF PAYEE SUSPENSE CASES

In November 2008, SSA developed a Website to control representative payee
suspensions. The Website helps field offices control and resolve their representative
payee suspense cases. SSA identifies these cases from its payment records each
month and provides the information to its field offices via the Website-tracking program.
The tracking program also provides summary management information to help monitor
the workload.

From the population of 14,134 beneficiaries whose benefit payments had been
suspended pending the selection of a representative payee as of December 2009,
459 remained in suspended pay status as of July 2011. To determine whether these
beneficiaries were properly included in the Website-tracking program, we randomly
selected a sample of 30 beneficiaries. Based on our review, we found eight
beneficiaries (26.7 percent) were not on the Website-tracking program. Of these,
three reside in the United States and five resided in a foreign country. The eight
beneficiaries had withheld benefits totaling $159,189 for an average of 3.7 years.

We referred the eight beneficiaries to SSA and learned the Website-tracking
program did not include beneficiaries residing in foreign countries. SSA’s Office of
International Operations subsequently requested the Website-tracking program include
representative payee suspensions for beneficiaries residing in foreign countries. SSA
was still examining why the three beneficiaries residing in the United States were not on
the Website.

CONCLUSION AND RECOMMENDATIONS
Although SSA had improved its controls and procedures, additional actions are
necessary to ensure (1) adult beneficiaries are not improperly suspended pending
the selection of a representative payee, (2) field offices are properly evaluating child
beneficiaries’ (ages 15 through 17) capability to manage benefits, and (3) representative
payees are selected as quickly as possible for child beneficiaries under age 15. We
estimate that $18.1 million in benefits was improperly suspended and should have been
paid directly to 3,039 adult beneficiaries. We also estimate that $4.3 million in benefits
may have been improperly suspended because they could have been paid directly to
1,201 child beneficiaries ages 15 through 17. In addition, we estimate that $8.1 million
in benefits was not paid timely to 2,544 children under age 15. Therefore, we
recommend that SSA:

1. Remind employees to pay legally competent adult beneficiaries directly on an interim
   basis while it searches for a representative payee.

2. Remind employees to evaluate whether child beneficiaries ages 15 through 17 are
   capable of managing their benefits.
Page 10 - The Commissioner


3. Select representative payees as quickly as possible for child beneficiaries under
   age 15.

4. Determine and resolve why the representative payee Website-tracking program did
   not include all beneficiaries in suspense pending the selection of a representative
   payee.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
Based on a data extract from the Social Security Administration’s (SSA) Master
Beneficiary (MBR) and Supplemental Security Records (SSR), we identified a
population of 14,134 beneficiaries who were in suspended payment status pending
the selection of a representative payee as of December 2009. From this population,
we selected a random sample of 200 beneficiaries to determine whether SSA had
adequate controls to ensure it took appropriate actions for beneficiaries whose
payments had been withheld pending the selection of a representative payee.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and Code of Federal
    Regulations as well as SSA’s Program Operations Manual System and other policy
    memorandums;

•   interviewed SSA employees from the Offices of Policy and Operations, including the
    representative payee coordinators from each regional office;

•   reviewed queries from SSA’s MBR, SSR, Payment History Update System, and
    Online Retrieval System; and

•   reviewed queries from the Department of the Treasury, Financial Management
    Service, and Treasury Check Information System.

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit
objective.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
February and August 2011. The entity audited was the Office of Operations under the
Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                               Appendix C

Sampling Methodology and Results
From the Social Security Administration’s (SSA) Master Beneficiary and Supplemental
Security Records, we obtained a data extract of 14,134 beneficiaries who were in
suspended payment status pending the selection of a representative payee as of
December 2009. We selected a random sample of 200 beneficiaries to determine
whether SSA had adequate controls to ensure it took appropriate actions for
beneficiaries whose payments the Agency had withheld pending the selection of a
representative payee.

Payments to Adult Beneficiaries Were Improperly Suspended

Of the 200 beneficiaries in our sample, 96 were adults age 18 or older. We found that
SSA improperly suspended benefits for 43 of these beneficiaries. As a result, SSA
withheld $256,729 in benefits for an average of 274 days. These beneficiaries should
have received direct payment until a representative payee was selected. Projecting
these results to our population of 14,134 beneficiaries, we estimate that SSA had
improperly suspended about $18.1 million in benefits to 3,039 beneficiaries.

Benefits Could Have Been Paid Directly to Children Ages 15 Through 17

Of the 200 beneficiaries in our sample, 29 were children ages 15 through 17. We found
that SSA could have directly paid 17 of these beneficiaries pending the selection of a
representative payee. As a result, SSA withheld $60,909 in benefits for an average of
205 days. Projecting these results to our population of 14,134 beneficiaries, we
estimate that SSA could have directly paid about $4.3 million in benefits to
1,201 beneficiaries.

Benefits Were Not Reinstated Timely to Children Under Age 15

Of the 200 beneficiaries in our sample, 75 were children under age 15. We found
that SSA suspended their benefits pending the selection of a representative payee.
However, for 36 of these beneficiaries, SSA did not reinstate benefits in a timely
manner. 1 As a result, SSA withheld $114,948 in benefits for an average of 310 days.
Projecting these results to our population of 14,134 beneficiaries, we estimate that SSA
had not paid timely about $8.1 million in benefits to 2,544 beneficiaries.




1
 For our review, we used a standard of 30 days to determine whether SSA processed a representative
payee suspension timely.


                                                C-1
The following tables provide the details of our sample results and statistical projections.

Table 1 – Population and Sample Size

               Description                                        Number of Beneficiaries
 Population Size                                                         14,134
 Sample Size                                                                200

Table 2 – Payments to Adult Beneficiaries Were Improperly Suspended

                                                     Number of                  Amount of
             Description                            Beneficiaries            Benefits Withheld
 Sample Results                                            43                      $256,729
 Point Estimate                                        3,039                    $18,143,038
 Projection - Lower Limit                              2,381                     $9,341,294
 Projection - Upper Limit                              3,787                    $26,944,783
 Note: All statistical projections are at the 90-percent confidence level.

Table 3 – Benefits Could Have Been Paid Directly to Children Ages 15 Through 17

                                                     Number of                  Amount of
             Description                            Beneficiaries            Benefits Withheld
 Sample Results                                            17                       $60,909
 Point Estimate                                        1,201                     $4,304,439
 Projection - Lower Limit                                 779                    $1,942,836
 Projection - Upper Limit                              1,759                     $6,666,042
 Note: All statistical projections are at the 90-percent confidence level.

Table 4 – Benefits Were Not Reinstated Timely to Children Under Age 15

                                                     Number of                  Amount of
             Description                            Beneficiaries            Benefits Withheld
 Sample Results                                            36                      $114,948
 Point Estimate                                        2,544                     $8,123,375
 Projection - Lower Limit                              1,935                     $5,190,294
 Projection - Upper Limit                              3,255                    $11,056,456
 Note: All statistical projections are at the 90-percent confidence level.




                                                    C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 31, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: Beneficiaries in Suspended Payment
           Status Pending the Selection of a Representative Payee” (A-09-10-11065)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas, at (410) 966-7284.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“FOLLOW-UP: BENEFICIARIES IN SUSPENDED PAYMENT STATUS PENDING
THE SELECTION OF A REPRESENTATIVE PAYEE” (A-09-10-11065)

Recommendation 1

Remind employees to pay legally competent adult beneficiaries directly on an interim basis
while it searches for a representative payee.

Response

We agree. On September 20, 2011, we published revised instructions reminding employees to
make direct payment to beneficiaries unless there is a practical or policy reason preventing direct
payment.

Recommendation 2

Remind employees to evaluate whether child beneficiaries ages 15 through 17 are capable of
managing their benefits.

Response

We agree.

Recommendation 3

Select representative payees as quickly as possible for child beneficiaries under age 15.

Response

We agree.

Recommendation 4

Determine and resolve why the representative payee Website-tracking program did not include
all beneficiaries in suspense pending the selection of a representative payee.

Response

We agree. We will make modifications to our website-tracking program to include beneficiaries
in suspense pending the selection of a representative payee and include foreign address records.
These modifications are contingent upon available resources.




                                                D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Tim Meinholz, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-10-11065.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
